LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 20, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

NICHOLAS SCHIANO, BARMITZVAHS.COM, INC. AND M&M ENTERTAINMENT,
INC. V. MATT FRIEDMAN AND SCALE MEDIA, INC.

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on September 20, 2019, I caused service to be made
pursuant to Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
Howard David DuBosar
The DuBosar Law Group, PA
3010 N. Military Trl, Ste 210
Boca Raton, FL 33431
HDuBosar@dubolaw.com
561-544-8980
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

